 U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




              PUBLIC
             RELEASE


          BUREAU OF THE CENSUS

   Data Capture System 2000 Requirements and
Testing Issues Caused Dress Rehearsal Problems


         Inspection Report No. OSE-10846 / January 1999




                            Office of Systems Evaluation
U.S. Department of Commerce                                                                               Report OSE-10846
Office of Inspector General                                                                                   January 1999




                                            TABLE OF CONTENTS



EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

OBSERVATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

I.        Inadequate Control of Requirements Disrupted System Development . . . . . . . . . . . 6

II.       Insufficient Testing Caused Problems During Dress Rehearsal . . . . . . . . . . . . . . . . . 8

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

Appendix A - Bureau Response
U.S. Department of Commerce                                                                Report OSE-10846
Office of Inspector General                                                                    January 1999


                                       EXECUTIVE SUMMARY


The Census Bureau is conducting the 1998 Dress Rehearsal to test methods and systems that will
be employed for the 2000 Decennial Census. Beginning in the spring of 2000, the Census Bureau
will collect and process data from approximately 120 million households, and by the end of the
year, will deliver to the President state level population counts for allocating seats among the
states in the House of Representatives. These operations will require the capability to capture
data from an estimated one billion pages of census forms within a four-month period. To
accomplish data capture, a state-of-the-art system, Data Capture System 2000 (DCS 2000), will
be employed. In a marked departure from any previous decennial census, DCS 2000 is being
developed by a contractor, rather than internally by the bureau. The DCS 2000 contract is
divided into two overlapping phases. Phase I was the design and development of a pre-
production version of the system for use in the dress rehearsal and is the subject of this report.
Phase II is the development of the full-scale production version, which will be used for the 2000
Decennial Census.

We conducted this evaluation to determine whether the performance of DCS 2000 during the
dress rehearsal indicates that it is likely to be able to accurately capture data within the required
time constraints during the 2000 Decennial Census. In addition, we assessed problems
encountered during the dress rehearsal to identify improvements that are needed to help ensure a
successful decennial census.

We found that during the dress rehearsal, DCS 2000 experienced numerous serious problems in
processing dress rehearsal forms resulting from inadequate control of requirements and
insufficient testing.1 Despite the problems, the data capture system met all of its processing
deadlines. However, the size, complexity, and performance requirements of the decennial census
mean that similar problems during the decennial would introduce a high risk of not being able to
complete data capture operations on time and could produce data of questionable accuracy. We
believe that with strict requirements management, comprehensive testing, and sufficient funding,
the problems experienced with DCS 2000 during the dress rehearsal can be solved, and the system
will be capable of performing as needed during the decennial census.

The data capture contractor had planned to use rigorous and well-defined system engineering
procedures, but continuing growth and change in requirements caused the contractor to abandon
its planned approach. Instead, concurrent development, testing, and deployment activities were

        1
           Requirements are the functional and performance capabilities that a system has to provide and are the
basis for system development. Requirements growth and change must be controlled so that system capabilities can
be implemented within an established cost and schedule.

                                                        i
U.S. Department of Commerce                                                    Report OSE-10846
Office of Inspector General                                                        January 1999

performed on a short cycle that did not allow enough time to consistently apply sound system
engineering practices, including systematic software and system testing. (See page 6.)

The bureau also had developed a comprehensive and rigorous test program for DCS 2000 that
was designed to identify and correct problems early and to validate that the system functioned
properly before dress rehearsal. However, funding shortfalls and the disruption to the system
engineering approach caused by requirements instability made it necessary to reduce the size and
scope of the test program. As a result, many problems that should have been identified before
dress rehearsal were not found until dress rehearsal. (See page 8.)

In view of the above problems associated with DCS 2000 requirements and testing, the Census
Bureau and the contractor are to be commended for their efforts in analyzing and correcting the
problems that occurred, spending many more hours on problem resolution than originally
anticipated. Efficient review teams, rapid software development, effective analysis and
communication of the issues, and a committed staff were all key factors in correcting the problems
and making the system work.

At our exit conference, bureau officials told us that they recognize the need to improve the
management of requirements not only for data capture but for all aspects of the decennial census,
and they have convened a steering group comprising the decennial operational managers to
implement a requirements control process. Improving requirements management is imperative,
and the bureau has taken an essential step to do so. Nonetheless, the bureau expects continued
and intense pressure on requirements from parties both within and outside the bureau seeking
refinements, additions, and changes to planned operations and procedures. Many proposed
changes will have merit individually but may be prohibitive from a cost or schedule perspective or
may have unanticipated effects on other operations. We believe that control of requirements is an
absolute necessity for achieving a successful decennial census and that bureau senior management
officials must continue to support and strengthen the requirements control process.

We recommend that the bureau strengthen the requirements management process for DCS 2000.
We also recommend that the bureau establish schedules with sufficient time and provide adequate
funding to perform complete and improved testing of DCS 2000, including operational testing.
Our complete recommendations begin on page 12.

                                            ----------

The Census Bureau has agreed with the conclusions of this report, and will implement our
recommendations as detailed in its response, which appears as Appendix A.




                                                ii
U.S. Department of Commerce                                                        Report OSE-10846
Office of Inspector General                                                            January 1999


                                        INTRODUCTION


The Census Bureau is currently conducting the 1998 Dress Rehearsal to test methods and systems
that will be employed for the 2000 Decennial Census. The dress rehearsal has three major phases:
data collecting, data capture, and data reporting. Because of the importance of the dress rehearsal
to the success of the decennial census, we are evaluating major information technology
components used to conduct the dress rehearsal. As a result of our initial work, we have selected
the following major components of the census process to evaluate: data capture, decennial field
interface, and headquarters processing. This report addresses data capture.


                                     PURPOSE AND SCOPE


The objective of this evaluation is to determine if the performance of DCS 2000 during the 1998
Dress Rehearsal indicates that it is likely to be able to accurately capture data, within the required
time constraints, during the decennial census. The evaluation also assesses the reasons for
problems encountered during the dress rehearsal and identifies improvements that are needed to
help ensure a successful census.

During our evaluation, we interviewed Census Bureau and contractor personnel involved in the
development and testing of DCS 2000 and its operation for the dress rehearsal. We met with
census staff within the Decennial Systems and Contracts Management Office at bureau
headquarters and within the Data Preparation Division in Jeffersonville, Indiana, as well as with
contractor personnel supporting these offices, including the DCS 2000 contractor. During the
dress rehearsal, we observed the operation of DCS 2000 at Jeffersonville. We also reviewed
system development documentation, trouble reports, and program management review data.

Our work was performed in accordance with the Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.


                                         BACKGROUND


Beginning in the spring of 2000, the Census Bureau will collect and process data for
approximately 120 million households, and by the end of the year, will deliver to the President
state level population counts needed to determine the allocation of seats among the states in the
House of Representatives. These operations will require the capability to capture the data from

                                                  1
U.S. Department of Commerce                                                                 Report OSE-10846
Office of Inspector General                                                                     January 1999

an estimated one billion pages of census forms within a four-month period commencing on March
8, 2000. In order to capture this amount of data with such severe time constraints, a state-of-the-
art data capture system, DCS 2000, will be employed.

In a marked departure from any previous decennial census, DCS 2000 is being developed by a
contractor rather than internally by the bureau. A contract for the design and development of
DCS 2000 was awarded on March 21, 1997. The DCS 2000 contract is divided into two
overlapping phases. Phase I was the design and development of a pre-production version of the
system for use in the dress rehearsal and is the subject of this report. Phase II is development of
the full-scale production version that will be used for the 2000 Decennial Census. DCS 2000
development is being performed at the bureau’s central computing facility in Bowie, Maryland.

Data Capture System 2000

DSC 2000 is designed to provide a complete data capture solution for the Census Bureau,
encompassing the check-in of forms received from the public, census enumerators and other
sources, high-speed direct electronic imaging of the data on those forms, and preparation of that
data for tallying and statistical processing. As shown in Figure 1, the system must:

        C        Check-in forms,
        C        Perform high-speed electronic imaging to digitally capture and process the forms,
        C        Automatically convert the image data into ASCII2 files,
        C        Provide corrective actions for data that fails automatic conversion, and
        C        Prepare output files of the captured data.

The data capture process begins with the check-in of returned census-related forms (e.g.,
respondent, continuation, enumerator-filled, group quarters, and Be Counted). Forms in
languages other than English or Spanish are sent for translation prior to processing. The check-in
step is performed by a special purpose machine that slices open the envelopes containing the
forms and sorts them into pockets in priority order based on information encoded in a pre-printed
bar code. Check-in data, indicating which forms have been received, is developed during this step
and delivered to the Census Bureau headquarters for use with non-response follow-up. This
procedure is used by Census to count those households that do not provide a timely response by
sending a census enumerator to collect the information in person.




        2
          ASCII is the acronym for the American Standard Code for Information Interchange. ASCII is a code for
representing English characters as numbers, with each character assigned a number from 0 to 127. Most
computers use ASCII codes to represent text, and files used to store ASCII coded text are commonly referred to as
ASCII files.

                                                        2
U.S. Department of Commerce                                                                                    Report OSE-10846
Office of Inspector General                                                                                        January 1999

Once checked in, the forms are manually prepared for scanning. An electronic image of the form
is then captured by a scanner. Workflow software guides the captured image through automatic
processing by passing it through a series of steps. This processing begins with the automated
image quality assessment (AIQA) operation, which checks image quality and registration (correct
alignment of the document during scanning). Following quality assessment, the image is passed in
succession to optical character recognition (OCR) and optical mark recognition (OMR) for
conversion of handwritten data on the forms into ASCII data. Images with errors generated by
character or mark recognition failures are sent to audit resolution for corrective action.
Corrective actions include key from image, which allows operators to verify imaged fields that
have a low accuracy confidence score, and key from paper for images that fail.

At this point in the process, DCS 2000 will merge all ASCII data generated from data capture and
produce ASCII files, which are transmitted on a scheduled basis to headquarters, via Census
Bureau network services, for statistical processing.


                                 Figure 1. Processing Flow of DCS 2000

                                         Data Capture 2000 System
    Foreign                                                                                                           Census
   Language                                         Check-In Records                                                   HQ
   Translation
                 Envelope                                                                            Data         Title 13 and
                 Check-In                                                                           Delivery      Check-In Files;
                                                                                                                  Data Capture
                 Problem     F                                                                                    Process Status/
                                                                  OCR/             Audit
      USPS                   O    Scan          AIQA                                                              Information Requests
                                  Scan          AIQA              OMR            Resolution
                             R
                 Exception                                                                           Data
                             M
                 Check-In                                                                          Packaging
                             S
                                                                                                      and
                                                                                                   Reporting      Reports/
                                                                                                                  Requests
     FEDEX         Box                         Key from          Key from                     IN                       DCC
                 Check-In                       Paper             Image                       PROCESS               Management
                                                                                              DATA

 System User
 Commands/
  Responses
                                                    Quality Assurance




                                             Workflow Management Services

                                            Operating System / System Services

                                                    Network Services




                                                                3
U.S. Department of Commerce                                                                  Report OSE-10846
Office of Inspector General                                                                      January 1999

                                              OBSERVATIONS


During the dress rehearsal, DCS 2000 experienced many serious problems resulting from
inadequate control of requirements and insufficient testing. A similar number and severity of
problems during the 2000 Decennial Census would introduce a high risk of not being able to
complete data capture operations on time and could produce data of questionable accuracy.
Problems encountered during the decennial census will be magnified as compared to the dress
rehearsal because of the decennial’s much greater size and complexity. Whereas dress rehearsal
data capture operations were conducted at one site (Jeffersonville), which processed forms from
approximately 400,000 households, these operations for the decennial census will be conducted
concurrently at four geographically dispersed sites, which must process forms from approximately
120 million households—a three-hundredfold increase. Moreover, each center will be staffed by
significant numbers of inexperienced, temporary workers.3

In April 1998 we visited Jeffersonville to observe the operation of DCS 2000. Although the
bureau had expected some problems to occur with DCS 2000 during dress rehearsal, it had
planned for the system to perform in a fashion similar to the decennial census. However, at the
time of our visit, the installed data capture system was experiencing many more problems than the
bureau expected in processing dress rehearsal forms. Bureau and contractor personnel reported
250 critical trouble reports4 before dress rehearsal, and nearly half were still open when the dress
rehearsal began. A total of 398 critical trouble reports was recorded through the completion of
dress rehearsal. Examples of critical trouble reports that were open during dress rehearsal
included the following:

        C        Pipeline manager failure, unable to notify workflow of new batch
        C        Sorter generates duplicate identification numbers
        C        Validation of identification numbers not properly functioning
        C        Pipeline manager crashes after 40 batches
        C        Automatic backup of Title 13 data fails
        C        Key controller goes into infinite loop
        C        English forms being treated as foreign language
        C        Cannot generate check-in files
        C        Keying install deletes in-progress batches


        3
         Three of the data capture centers will be operated under the contract. The fourth will be operated by the
Census Bureau at Jeffersonville.

        4
           Trouble reports are assigned a priority indicating the urgency with which a resolution is required. The
priority order is low, important, and critical. The DCS 2000 program defines a critical trouble report as a problem
that prevents the essential functioning of the system.

                                                         4
U.S. Department of Commerce                                                                  Report OSE-10846
Office of Inspector General                                                                      January 1999

        C        Production Control hangs if processed tray has missing forms
        C        Pipeline manager crashes (out of memory)
        C        Missing records in Jeffersonville databases

All but 2 critical trouble reports were closed (i.e., the problem reported was corrected as of
November 1998).

During our visit, we observed problems with check-in, scanning, and automatic image
processing. Check-in problems included double-feeding and missorting of envelopes and
misreading of bar codes caused by inconsistencies in their specification and lower than expected
photo eye capability.

Poor paper quality, resulting in extremely high levels of paper dust, caused significant problems
for the scanning operation. The high level of dust impaired the feeding of paper into the scanner
by sticking to the rollers, slowly making them slick and slightly larger, and by adhering to the
sensors that detect more than one form being fed into the scanner. With diminished ability to
detect double feeds, loss of friction, and increased roller size, a higher than expected error rate
resulted from feeding the forms into the scanner. The paper dust also collected on the scanners’
optical guide bars causing extraneous marks and lines to be introduced on many of the captured
images. The level of dust was so high that a periodic maintenance operation that was to be
performed every four hours had to be performed at 15-to-20 minute intervals. The need to
perform routine maintenance with much greater frequency was distracting and may have increased
the possibility that some forms were missed during scanning operations5.

Once the image was captured, workflow software that was designed to move the image through
automatic processing steps (i.e., AIQA, OMR, OCR) failed periodically, as did some of the steps
themselves. These failures required manual intervention by the contractor’s on-site personnel to
correct or, in many instances, restart the entire process. As a consequence, backlogs developed in
the data capture system that made it unable to keep pace with the scanners. Scanning was then
forced to wait until downstream automatic operations were able to process the backlogs.
According to bureau officials, this precluded the use of one of the three scanners the system was
designed to support due to the downstream performance problems.

The problems noted above interacted to introduce another problem—unaccounted forms. An
unaccounted form results when its bar code is captured at only one of two steps, either check-in
or scanning. According to the contractor, approximately 4,000 forms are “missing” from the
dress rehearsal. A variety of errors at check-in and scanning caused this problem. These errors
included:

        5
          Although paper quality caused significant problems for data capture, analysis of this problem is outside
the scope of this report.

                                                         5
U.S. Department of Commerce                                                     Report OSE-10846
Office of Inspector General                                                         January 1999

       C       Invalid bar codes being entered into the system at check-in,
       C       Valid bar code being entered for blank forms and not tagged as such,
       C       Double-feeding of forms at scanning,
       C       Mishandling of forms at the scanner due to the high rate of operator intervention,
               and
       C       Scanning of forms from envelopes that had been missed at check-in due to double-
               feeding of envelopes.

Many of the problems with unaccounted forms have been corrected; however, an exact
accounting of all forms must be assured prior to any processing for the census.

The principal reasons for the data capture problems encountered during dress rehearsal are
discussed below.


I.     Inadequate Control of Requirements Disrupted System Development

The success of software intensive projects, such as DCS 2000, depends on the precision and
completeness of the understanding between the user and the implementor as documented by
requirements. Software errors are frequently attributable to problems with or misunderstandings
of requirements, and errors related to requirements generally are the most expensive to fix.
Consequently, every reasonable effort should be made to precisely define system requirements as
early in the project as feasible.

However, on DCS 2000, a significant number of requirements were late, added, or inconsistent.
In particular, (1) requirements for forms and reports were not defined until late in the
development cycle, (2) bar code and output file specifications were inconsistent, and (3) tasks for
map scanning and data capture for projects unrelated to the dress rehearsal were added. While it
is not uncommon for requirements to be ill-defined and volatile during the early project phases,
this problem persisted on DCS 2000 until the dress rehearsal and continued even during dress
rehearsal data capture operations. The fact that the DCS 2000 project had little flexibility to
compensate for requirements problems or to manage risks exacerbated the problem: Contract
funding levels were not increased to accommodate the additional development that the new and
changing requirements demanded, and funds initially intended for testing had to be used for
development to satisfy these requirements. Moreover, because the dress rehearsal date was fixed,
the schedule could not be extended to provide more time for additional development and testing.

The DCS 2000 contract originally sought to deliver a fully-functioning data capture system at the
start of the 1998 Dress Rehearsal. Because many key requirements were unknown at contract
award in March 1997, the contract left them undefined. The bureau planned to define those
requirements within six months of contract award through a series of internal meetings and to

                                                 6
U.S. Department of Commerce                                                     Report OSE-10846
Office of Inspector General                                                         January 1999

communicate them to the contractor to enable production of a functional and performance
specification. The contractor produced the DCS 2000 Functional and Performance Specification
on September 12, 1997. This specification document was based on the requirements that were
known at that time, which were defined with varying degrees of precision. Many requirements
remained unidentified and thus undefined.

For example, requirements for the different types of census forms to be automatically processed
were late and grew in number. The number of form types increased from approximately four in
initial planning to 30 for the dress rehearsal. While the bureau provided general guidelines on the
nature and types of forms that DCS 2000 would have to process early in the development cycle, it
did not provide actual forms to the contractor when originally planned. The first seven forms
were not provided to the contractor until February 9, 1998, with the remaining 23 forms being
provided between February 10, 1998, and April 2, 1998. Access to actual forms is essential in
order to program the system to accurately recognize the position, type, and range of the data to
be read. However, forms were received from five to seven months late, and with Census Day for
the 1998 Dress Rehearsal on April 18, 1998, little time was left to verify system processing and
perform any necessary reprogramming of DCS 2000.

Another example of late requirements was related to the status reports. The format and content of
DCS 2000 performance and production status reports that the contractor was required to produce
were not fully defined until after the start of dress rehearsal. As a result, the contractor had to
employ a time-consuming trial-and-error approach to produce reports to meet the bureau’s
requests.

Additional examples of late requirements involved the Data Capture Audit and Resolution
(DCAR) process. DCAR required the contractor to determine and report additional information
related to the completeness of data capture and to the population count for each processed
questionnaire. The additional data was included in the data files that were electronically sent from
Jeffersonville to Census Bureau headquarters for subsequent processing. The specifications
provided to the contractor were ambiguous, and considerable effort had to be expended by bureau
and contractor personnel to finally determine the form and content of the additional data required
to support DCAR.

Examples of inconsistent requirements pertained to how the bar codes would be pre-printed on
each form and how the output file of the captured data would be formatted. In the case of bar
codes, it was not apparent until returned forms arrived at Jeffersonville and were processed that
the printing contractor and the DCS 2000 contractor were given conflicting specifications. This
conflict resulted in incorrect processing of forms and required reprogramming of DCS 2000.
Also, the initial format specified by the bureau for the output file of the captured data was
inconsistent with the data that was available from the returned forms. The format specified data
fields that did not exist on the forms that were to be processed, while ignoring some data fields

                                                 7
U.S. Department of Commerce                                                       Report OSE-10846
Office of Inspector General                                                           January 1999

that did exist. As a result, Census Bureau headquarters systems encountered problems with
processing data capture files provided by Jeffersonville because of the unexpected variations in the
content and format of the data.

The data capture contractor had proposed a rigorous and well-defined system engineering
approach in which specific activities had to be performed and completion criteria met before the
project could proceed to the next phase of development, test, or deployment. However,
requirements growth and change, which were not accompanied by funding growth or schedule
relief, caused the contractor to abandon its planned approach and perform concurrent
development, testing, and deployment activities on a short cycle that did not allow sufficient time
to consistently apply sound system engineering practices. This problematic approach was adopted
in order to deliver a system in time for dress rehearsal, an event whose scheduled start was fixed.

Although the bureau had planned to deliver a fully tested and functioning data capture system to
Jeffersonville before the dress rehearsal began, it became necessary to deliver the system in
increments, with incremental deliveries continuing after dress rehearsal data capture operations
had begun. As a result, the contractor and Census Bureau implemented a two-week software
upgrade delivery cycle during dress rehearsal. In all, seven software upgrades and 12 emergency
corrections to DCS 2000 were made during dress rehearsal to add capabilities and correct
deficiencies. This approach allowed critical processing capabilities to be delivered just in time to
support the schedule of operations and to correct problems, but it did not allow the contractor to
follow well-defined development and test procedures. We believe that the system engineering
shortcuts that the contractor had to take as a result of the requirements issues were a major
contributor to the number and severity of problems encountered during dress rehearsal data
capture operations.


II.    Insufficient Testing Caused Problems During Dress Rehearsal

Errors detected early in the development of a system are generally easier and less costly to fix
than those found later in the development cycle. Hence, the bureau had developed a
comprehensive and rigorous test program for DCS 2000 that was designed to validate that it
functioned properly and to identify and correct problems before dress rehearsal. The contractor’s
proposed test program was designed to support that of the bureau.

The DCS 2000 contract specified that the data capture system would be developed in four
increments, with each increment to include additional capabilities. The contract also specified that
the first three increments were to result in interim releases of the system and that each release
would be subject to a demonstration (referred to in the contract as level B, C, and D
demonstrations) that would thoroughly test its capabilities using census forms provided by the
Census Bureau.

                                                  8
U.S. Department of Commerce                                                      Report OSE-10846
Office of Inspector General                                                          January 1999


The first interim release, which supported the Level B demonstration, was to include basic
scanning and forms processing capabilities. The second release, which supported the Level C
demonstration, was to include the additional capabilities associated with the check-in and systems
administration subsystems, as well as the processing of 12,000 forms to be filled out by the public
in a planned 1997 census test. The third release was supposed to include the capabilities to
support the dress rehearsal, which was the Level D demonstration. The fourth release will be the
data capture system that will be delivered to the bureau’s data capture centers for the decennial
census.

Although both the bureau and contractor had a well-defined testing program, their planned
approach to testing could not be followed because of several factors, including funding problems
and the effect of requirements instability as discussed earlier. The Level B and Level C
demonstrations had to be reduced in scope and delayed due to fiscal year 1997 funding
constraints. The funding shortfall resulted from the bureau’s lack of planning for many program
requirements, as well as increased contractor overhead rates and unplanned local travel
expenses because of delayed occupancy of the Bowie computer center. As noted above, for the
Level C demonstration, the bureau had intended to provide the contractor with a test deck of
approximately 12,000 forms from a planned 1997 census test. However, the bureau canceled the
test because of a lack of funding, and an alternative test deck had to be developed. Thus, instead
of the more realistic test deck comprising 12,000 forms filled in by the public, a limited test deck
of 2,000 forms filled in by census staff was substituted. Testing with a reasonable quantity of
forms filled out by the public helps ensure a level of correctness of many aspects of the system
that cannot be achieved by any other means. Besides improved testing of the physical imaging of
the forms, the OMR, OCR, quality check, and key-from-image functions would have received a
more thorough check-out if the originally-planned test deck had been available.

According to the bureau’s plans, the dress rehearsal was to be the first operational test of the
system. Operational testing exercises the complete system in an actual operational environment
or in an environment as close to the operational environment as possible. The Level B and
Level C demonstrations were designed to ensure that dress rehearsal data capture operations
would proceed smoothly. However, the limited testing of the system during the previous
demonstrations did not uncover many of the problems that should have been identified before
dress rehearsal.

Testing was limited not only by the reductions in the size and scope of the demonstrations, but
also by the use of a test environment that did not replicate the operational environment. The
original DCS 2000 plan had called for the installation of two separate systems, one for
development and another for testing. However, because of funding shortfalls, the test system
never had all of the equipment designated for a DCS 2000 operational system, as had been
planned. For example, the test system had only two scanners instead of the planned three. In

                                                 9
U.S. Department of Commerce                                                                Report OSE-10846
Office of Inspector General                                                                    January 1999

addition, the number of workstations used for performing the automatic processing steps, while
not intended to completely mirror an operational suite, was significantly less than planned
(AIQA—1 versus 17, OMR—4 versus 12, OCR—5 versus 10).6 Contractor and bureau
management officials did not expect these differences to significantly affect performance. In
reality, these differences allowed the very serious and disruptive performance backlogs that
occurred during dress rehearsal to go undetected during system testing. Had the full complement
of equipment and test materials been available for the Level C demonstration as planned, we
believe that most of these problems would have been identified and corrected before the dress
rehearsal.

In addition to supporting the Level B, C, and D demonstrations, the contractor had also designed
an internal test process that emphasized identifying and eliminating errors systematically as
development proceeded in order to lessen propagation of defects to later phases. The
contractor’s planned approach includes unit testing, which is conducted by the software
developers on the basic software components; software integration testing, which tests integrated
suites of software components and is also carried out by the software developers; and system
integration test, which comprises tests conducted by test engineers in a laboratory environment
that is to be configured identically to the operational system. The test process also includes
acceptance testing, which will be conducted by the contractor and witnessed by the bureau.

As noted previously, due to growth and change in requirements, the software was not developed
or tested as Census planned, and as additional requirements were identified, the contractor had to
quickly develop the software, abandoning its systematic test process. More than one-half of the
nearly 1,700 trouble reports were discovered at system integration testing or later. We believe
that many of the problems encountered during system integration testing would have been
discovered and corrected earlier during unit testing or software integration testing if the
contractor’s original test program had been followed.

In order to ensure more effective testing during the remainder of the DCS 2000 development
contract, the contractor and the bureau have proposed or initiated several courses of action. First,
the contractor has met with members of all the software development teams and stressed the
importance of following the original test plan and ensuring that effective unit and software
integration testing is performed during software development. This will not be possible, however,
unless the bureau controls requirements changes. In addition, the contractor has proposed that
separate systems, identical to those that will be used at the data capture centers for the decennial
census, be installed at the Bowie computer center for development and testing. Also, the
contractor has proposed that its systems engineers work with bureau developers on the design and
development of the decennial forms. This action is intended to help finalize form definitions


       6
           Seventeen workstations were allocated to AIQA after problems were encountered during dress rehearsal.

                                                       10
U.S. Department of Commerce                                                      Report OSE-10846
Office of Inspector General                                                          January 1999

more quickly, leaving more time for testing than was possible for dress rehearsal. Finally, in order
to obtain forms earlier for use in testing, the contractor and the bureau’s Data Capture System
Program Office are exploring the feasibility of using a test deck of forms based on an electronic
representation of the form’s definition.


                                         CONCLUSION


In view of the above problems associated with DCS 2000 requirements and testing, the Census
Bureau and the contractor are to be commended for their efforts in analyzing and correcting the
problems that have occurred, spending many more hours on problem resolution than originally
anticipated. Efficient review teams, rapid software development, effective analysis and
communication of the issues, and a committed staff were all key factors in correcting the problems
and making the system work.

Despite the problems encountered during dress rehearsal, the data capture system met all of its
processing deadlines. However, given the size, complexity, and performance requirements of the
actual decennial census, additional personnel resources, dedication, and hard work will not be able
to compensate if serious system deficiencies are encountered. Therefore, requirements and testing
for Phase II of DCS 2000 must be carefully managed to ensure that the systems delivered to the
data capture centers for the decennial census are capable of handling the expected volume of
forms and can deal with unexpected problems that are likely to occur. We believe that strict
management of requirements, comprehensive testing, and sufficient funding will allow the
problems experienced during dress rehearsal to be solved and DCS 2000 to be capable of
performing as needed during the decennial.

At our exit conference, bureau officials told us that they recognize the need to improve the
management of requirements not only for data capture but for all aspects of the decennial census.
As a result, they have developed the Census 2000 Management Plan, which addresses control of
requirements for the entire census. The plan calls for careful management of requirements by a
steering group comprising the decennial’s operational managers. This mechanism will provide the
bureau with a much-needed tool for change control by allowing impacts to budget, schedule, and
performance to be analyzed and understood before altering decennial census plans.

Improving requirements management is imperative for a successful decennial census, and we
believe that the bureau has taken an essential step to do so. Nevertheless, the bureau expects that
there will be continued and intense pressure on requirements from parties both within and outside
the bureau seeking refinements, additions, and changes to planned operations and procedures.
Many proposed changes will have merit individually but may be prohibitive from a cost or
schedule perspective or may have unanticipated effects on other operations. The more credibly

                                                11
U.S. Department of Commerce                                                    Report OSE-10846
Office of Inspector General                                                        January 1999

and quickly the change control process can determine these impacts, the better chance the bureau
has of controlling requirements. We encourage senior management officials at the bureau to
continue to support and strengthen the requirements control process and to communicate the
process both internally and externally, emphasizing the absolute need to control requirements in
order to achieve a successful 2000 Decennial Census.


                                   RECOMMENDATIONS


We recommend that the Director of the Census Bureau direct senior management for the 2000
Decennial Census to take the necessary actions to:

1.     Strengthen the requirements management process for DCS 2000 to ensure requirements
       are adequately specified in a timely fashion by:

       a.     Identifying all outstanding requirements and defining methods, responsible
              organizations, and a schedule for completing their definition.

       b.     Involving contractor personnel earlier in the process of forms definition and report
              format determination.

       c.     Enforcing cutoff dates for inclusion of requirements.

       d.     Ensuring new requirements are added only if sufficient resources are available and
              they do not adversely impact DCS 2000 development and testing.

       e.     Ensuring that the same requirements are defined and communicated in a uniform
              and consistent manner to all relevant parties.

2.     Establish schedules with sufficient time and provide adequate funding to perform complete
       testing of DCS 2000, including operational testing.

3.     Improve DCS 2000 testing for the decennial census by:

       a.     Ensuring that the test environment is identical in configuration and workload to the
              operational systems.

       b.     Pursuing testing with simulated forms.


                                               12
U.S. Department of Commerce                                                   Report OSE-10846
Office of Inspector General                                                       January 1999

       c.     Requiring the data capture services contractor to perform sufficient operational
              testing at each data capture center to assure correct system operation and adequate
              performance.

                                           ----------

The Census Bureau has agreed with the conclusions of this report, and will implement our
recommendations as detailed in its response, which appears as Appendix A.




                                              13
